Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel No.: (212) 619-4949• Fax No. (212) 608-3141

80891
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

AFFIDAVIT OF SERVICE

SS:

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 12th day of November 2019 deponent served 3 copies of the within

REPLY BRIEF FOR PETITIONERS
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
M. Stephen Pitt
S. Chad Meredith
Matthew F. Kuhn
Office of the Governor
700 Capitol Avenue, Suite 101
Frankfort, KY 40601
502-564-2611
steve.pitt@ky.gov
chad.meredith@ky.gov
matt.kuhn@ky.gov

Catherine York
Deputy General Counsel
Cabinet for Health and Family Services
Office of Legal Services
275 East Main Street, 5W-B
Frankfort, KY 40621
502-564-7905
catherine.york@ky.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on November 12, 2019, pursuant to Supreme Court

Rule 29.S(c). All parties required to be served,;;;z~~

d)~

Howard Daniels

Sworn to me this
November 12, 2019
Nadia R. Oswald-Hamid
Notary Public, State of New York
No. 0IOS6101366
Qualified in Kings County
Commission Expires November I 0, 2023

Case Name: EMW Women's Surgical Center v.
Meier
Docket/Case No. 19-417

Notary Public

